No.

IN THE
SUPREME COURT OF THE UNITED STATES

AKANDO, DUCKSWORTH, PETITIONER
Vs.
HAL MACMURDO, ET AL., RESPONDENT (S)

PROOF OF SERVICE
I,

/f-lfajirA () U(rAsu)niri-'b\
,20

, do swear or declare that on this date,

, as required by Supreme Court Rule 29 I have served the

enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:

1a\ (ijniYj fiffee-f_______
Acting ftnuge ;

l6%6?-

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 20

(Signature)

16

